No. 21A43
__________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________
OCTOBER TERM, 2020
__________________________________________
RICK ALLEN RHOADES,
Petitioner
v.
ANA MARTINEZ, HONORABLE,
Respondent
__________________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
__________________________________________
RHOADES’ REPLY TO RESPONDENT’S BRIEF IN OPPOSITION
TO HIS MOTION FOR STAY OF EXECUTION PENDING
FILING, CONSIDERATION, AND DISPOSITION OF
PETITION FOR WRIT OF CERTIORARI
__________________________________________
This is a capital case. Mr. Rhoades is scheduled to be executed today.
David R. Dow*
Texas Bar No. 06064900
Jeffrey R. Newberry
Texas Bar No. 24060966
University of Houston Law Center
4604 Calhoun Rd.
Houston, Texas 77204-6060
713-743-2171
713-743-2131 (f)
* Member, Supreme Court Bar

1

No. 21A43
__________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________
OCTOBER TERM, 2020
__________________________________________
RICK ALLEN RHOADES,
Petitioner
v.
ANA MARTINEZ, HONORABLE,
Respondent
__________________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
__________________________________________
RHOADES’ REPLY TO RESPONDENT’S BRIEF IN OPPOSITION
TO HIS MOTION FOR STAY OF EXECUTION PENDING
FILING, CONSIDERATION, AND DISPOSITION OF
PETITION FOR WRIT OF CERTIORARI
__________________________________________
Rick Rhoades filed his Motion for Stay of Execution Pending Filing,
Consideration, and Disposition of Petition for Writ of Certiorari (“Stay”) on
September 27, 2021. Respondent filed her Brief in Opposition (“BIO”) today.
Rhoades now files this Reply to Respondent’s Brief in Opposition.1

In this Reply, Rhoades responds only to those assertions made by
Respondent he deems merit a reponse.
1

2

I.

Contrary to Respondent’s repeated assertion that Petitioner asked
the federal court to grant mandamus relief, Petitioner requested
declaratory relief alone, not a coercive remedy.
In its Brief in Opposition, Respondent asserts on no fewer than six occasions

that "Rhoades[] . . . improperly requested mandamus relief" from the federal court.
See, e.g., BIO at ii, 2, 7, 11, 18, 19. The repetition of this mischaracterization of
Rhoades’ Complaint, however, does not make the assertion accurate. Rather, with
respect to Rhoades’ attempt to enjoy the process he was due under Article 35.29 of
the Texas Code of Criminal Procedure, his § 1983 “Complaint asked the district
court to issue a declaratory judgment that [he] was entitled to a decision on the
merits of his motion filed in the state trial court.” Plaintiff-Appellant’s Br. 12,
Rhoades v. Martinez, No. 21-7007 (5th Cir. Sept. 27, 2021) (citing ROA.30).2 The
injury he asserted, as discussed in the following section, was a violation of his
Fourteenth Amendment right to due process. He did not ask the federal court to
provide that process, for that court would have been unable to do so. But, relying on
the integrity of the state courts to act in accordance with state law following a
declaration by the federal court that he had not received the process he was due,
Rhoades asked the federal court solely to grant that declaratory relief.
Neither Respondent nor the court below take issue with the proposition that
a federal court has power to declare, in an action brought pursuant to § 1983, that a
state has violated the plaintiff's right to due process by the manner in which it

In this pleading, Rhoades cites to the record on appeal in the court of
appeals according to that court’s rule as ROA.[page number].
2

3

applied state law. Instead, both Respondent and the court below mischaracterize
the relief Rhoades has consistently sought. Read properly, however, Rhoades’
complaint asks the federal court to grant relief it has the power to grant.
II.

Rhoades Complaint alleged that his right to procedural due process
was violated by manner in which the state courts construed Article
35.29 in his case.
Throughout her Brief in Opposition, Respondent mischaracterizes Rhoades’

Complaint as having asked the federal court to order Judge Martinez to find she
had jurisdiction. As explained above, the Complaint did not ask the district court
order Judge Martinez to do anything. Moreover, the Complaint did not ask the
district court to make any determination regarding whether Judge Martinez had
jurisdiction. Instead, the Complaint asked the district to find that Rhoades’ right to
due process had been violated by the manner in which the state courts had
construed Article 35.29 in his case. Specifically, in the state court proceeding, the
state courts construed the process afforded by Article 35.29 as being one that is
available only to defendants in whose cases mandate has not issued.3 It appears

In the portion of her Brief in Opposition that addresses In re Green, No.
WR-62,574-05 (Tex. Crim. App. Aug. 26, 2015), Respondent, in this Court, has
apparently shifted her position somewhat and seems to suggest that she does not
believe mandate strips a trial court of 35.29 jurisdiction in all cases. BIO at 30-31
(discounting that mandate issued before the 35.29 motions were filed and instead
emphasizing the date on which a petition for discretionary review was filed). This
shift makes it difficult discern what event Judge Martinez believes strips a trial
court of jurisdiction over an Article 35.29 motion. In the proceeding in the court of
appeals, she argued the mandate having issued is what left her without jurisdiction.
See Defendant-Appellee’s Brief at 22, 41 (citing State v. Patrick, 86 S.@.3d 592 (Tex.
Crim. App. 2002), and Staley v. State, 420 S.W.3d 785 (Tex. Crim. App. 2013). The
mandate issued in Green’s case on February 26, 2014, before Green filed his Article
35.29 motions. Stay at 30. The application does not claim his conviction became
3

4

that—and Respondent has yet to offer any counterexamples—this is the first time a
Texas court has so construed Article 35.29.
The legislative history could not be clearer that the Legislature intended
Article 35.29’s process to be available to defendants during post-conviction
proceedings. Specifically, the author of the bill which amended the statute in 2013
noted that post-conviction counsel had to apply to the court to get access for
confidential juror information. Bill Analysis, Tex. S.B. 270, 83d Leg., R.S. (2013),
available at
https://capitol.texas.gov/tlodocs/83R/analysis/pdf/SB00270F.pdf#navpanes=0 (“In
post-conviction capital defense cases, post-conviction counsel must apply to the trial
court for access to juror information.”). In other words, the Legislature believes the
process is available to defendants after mandate has issued.
Moreover, the CCA’s own actions in In re Green, No. WR-62-574-05 (Tex.
Crim. App. Aug. 26, 2015) make clear that that court did not believe the trial court
lacked jurisdiction to consider an Article 35.29 motion filed after mandate issued.
See supra n.3. While Respondent now attempts to distinguish Green, what she
cannot explain away is that two judges of the CCA made clear in proceedings in this
case that they believe that the court did have jurisdiction over Rhoades’ motion. In
re Rhoades, No. WR-78,124-02, 2021 WL 2964454, at *1 (Tex. Crim. App. July 14,
2021) (Yeary, J., dissenting). Respondent has been unable to cite any cases to this

final on that day as Respondent’s Brief in Opposition asserts. See BIO at 30
(“Rhoades asserts Green’s conviction became final in February 2014”).
5

Court or any court that hold she did not have jurisdiction to consider Rhoades’
motion. Notwithstanding the lack of any cases requiring her to do so (or even
suggesting it was the correct decision), Judge Martinez found she did not have
jurisdiction and dismissed Rhoades’ motion without issuing a decision on its merits.
(And, again, the record makes clear that the trial court, in fact, found that Rhoades
had met his burden with respect to the juror card. Stay at 22.)
With this action began the ongoing violation of Rhoades’ due process rights
which he asked the federal court to issue a declaratory judgment about in his
Complaint. Of course, there was an opportunity for the CCA to act in such a way as
to bring that violation to an end. Specifically, the CCA could have ordered the trial
court to reach a decision on the merits of Rhoades’ motion. The CCA, however, did
not do that. The result of the trial court’s initial action, combined with the CCA’s
failure to correct that action, was that Article 35.29 was construed by the state
courts in a way such that its processes are no longer available to defendants who
file their Article 35.29 motions after mandate issues. The CCA offered no
explanation for its failure to grant leave (and this Court should not interpret the
CCA’s unreasoned order as indicating the CCA affirmed Judge Martinez’s decision
despite Respondent’s desire for the Court to do so). Because of this, Rhoades has
been denied his state-created right to seek access to these juror materials. (Though
Respondent now argues these materials are incapable of supporting a meritorious
Batson claim, this Court is well-aware that a prosecutor’s copy of these types of
materials might contain evidence that demonstrates the challenges he made to the

6

venire at trial were based on racial animus. Foster v. Chatman, 136 S. Ct. 1737,
1748 (2016).)
This due process violation was the subject of Rhoades’ Complaint. ROA.26-29.
The Complaint did not ask the district court to analyze whether the trial court had
jurisdiction. See id. The Complaint did not ask the district court to order the trial
court to do anything. See id. The Complaint only asked the trial court to declare
that the arbitrary manner in which the state courts construed Article 35.29—
finding for the first time that its process is unavailable to defendants after mandate
has issued—violated Rhoades’ right to due process.
III.

The Fifth Circuit’s interpretation of the Rooker-Feldman doctrine is
inconsistent with this Court’s holding in Skinner and, if not
corrected by this Court, will eviscerate the power of federal courts to
protect the due process and equal protection guarantees implicit in
protections provided by state law.
In Skinner, this Court observed that it has applied the so-called Rooker-

Feldman abstention doctrine in only two cases (i.e., those that bear the doctrine's
name). See Skinner v. Switzer, 562 U.S. 521, 531-32 (2011). The Court emphasized
that the doctrine precludes an attack on an adverse state court judgment, and it is
clear in context that this Court was addressing a state court merits-based decision.
Rhoades has not challenged a state court’s decision. On the contrary, he has
challenged the state courts’ refusal to decide whether, under article 35.29, he has
established good cause. As Petitioner has stressed, article 35.29 has been the
subject in forty-eight reported Texas cases. His is the only one where the trial court
declined even to address his entitlement to the information he sought and the CCA

7

subsequently declined to intervene. His complaint, therefore, is a quintessential
claim to the process afforded by the state courts, and not to the state court decision
itself (for there is no state court decision).
This Court's holding in Skinner dictates that a claim like that of Rhoades’ is
appropriately pursued in federal court under 42 U.S.C. § 1983. To be sure, Rhoades
is complaining about something that took place in state court, but he is not
complaining about the state court’s holding or decision; he is complaining that his
case, unlike most if not all other cases involving the same statute, was treated
disparately and without due process.
The Fifth Circuit, however, in both this case and a litany of actions arising
under § 1983, has invoked the Rooker-Feldman doctrine to bar the federal courts
from addressing a due process challenge to state court procedures. Indeed, whereas
this Court’s own reliance on Rooker-Feldman has been exceedingly rare, the Fifth
Circuit’s invocation of the doctrine has been prolific. E.g., Richard v. Hoechst
Celanese Chemical Group, 355 F.3d 345, 350 (5th Cir. 2003); Price v. Porter, 351 F.
App’x 925 (5th Cir. 2009); Moore v. Texas Court of Criminal Appeals, 561 F. App’x
427, 430-31 (5th Cir. 2014); but see Burciaga v. Deutsche Bank National Trust Co.,
871 F.3d 380 (5th Cir. 2017).
But the Rooker-Feldman doctrine, when appropriately cabined, does not
stand in the way of a federal court’s power to hold that a state court has violated an
individual’s due process rights in the manner it applied state law. The contrary
view would empower state courts to act arbitrarily and to violate the due process

8

and equal protection guarantees without even the possibility of federal correction.
Neither comity nor appropriate respect for state court tribunals requires such an
outcome.
CONCLUSION
Mr. Rhoades respectfully requests that the Court stay his execution currently
set for after 6:00 pm today, September 28, 2021, pending the filing, consideration,
and disposition of his Petition for Writ of Certiorari.
Respectfully submitted,
s/ David R. Dow
_____________________________
David R. Dow*
Texas Bar No. 06064900
Jeffrey R. Newberry
Texas Bar No. 24060966
University of Houston Law Center
4604 Calhoun Rd.
Houston, Texas 77204-6060
713-743-2171
713-743-2131 (f)
* Member, Supreme Court Bar

9

